<html>
<title> - NUCLEAR POWER PLANT TRAGEDY IN JAPAN</title>
<body><pre>[Senate Hearing 112-11]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-11

                  NUCLEAR POWER PLANT TRAGEDY IN JAPAN

=======================================================================

                                BRIEFING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   TO

 PROVIDE AN UPDATE FOR COMMITTEE MEMBERS AND THEIR STAFF ON THE RECENT 
EVENTS AT THE TOKYO ELECTRIC POWER COMPANY'S FUKUSHIMA DAIICHI REACTOR 
 COMPLEX DUE TO THE EARTHQUAKE AND TSUNAMI THAT OCCURRED ON MARCH 11, 
                                  2011

                               __________

                             MARCH 29, 2011



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
  66-125 PDF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            RAND PAUL, Kentucky
MARK UDALL, Colorado                 DANIEL COATS, Indiana
JEANNE SHAHEEN, New Hampshire        ROB PORTMAN, Ohio
AL FRANKEN, Minnesota                JOHN HOEVEN, North Dakota
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel












                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Borchardt, R. William, Executive Director for Operations, Nuclear 
  Regulatory Commission..........................................     4
Lochbaum, David, Director, Nuclear Safety Project, Union of 
  Concerned Scientists...........................................    24
Lyons, Peter, Acting Assistant Secretary, Office of Nuclear 
  Energy, Department of Energy...................................     2
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     1
Pietrangelo, Anthony R., Senior Vice President and Chief Nuclear 
  Officer, Nuclear Energy Institute..............................    28

 
                  NUCLEAR POWER PLANT TRAGEDY IN JAPAN

                              ----------                              


                        TUESDAY, MARCH 29, 2011

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. OK, why don't we get started?
    Thank you all for being here. This is a briefing. This is 
not a hearing as such. I think the reason we tried to do it as 
a briefing is so that people wouldn't have to file written 
testimony 72 hours ahead of time and all of that. Things are 
changing very quickly with regard to the evolving situation at 
the Fukushima Daiichi nuclear power plant.
    While this committee does not have direct oversight on the 
safety of U.S. nuclear plants, we do have to consider how 
events such as those at Fukushima affect the ability of our 
nation's nuclear fleet of 104 reactors to supply electricity. 
This, of course, these 104 reactors currently account for about 
20 percent of the electricity that we use. What the future of 
nuclear energy will be as part of our nation's energy mix.
    The events at Fukushima are changing by the hour. They're 
serious. We are watching those events unfold on the other side 
of the world.
    Our knowledge at best is incomplete. As we look forward to 
these experts informing the committee on what they see 
occurring at the plant. How it impacts on our nation's existing 
fleet of reactors and answer questions that the Committee 
members might have.
    Before I introduce our first panel, we've got 4 witnesses, 
2 on this first panel and then 2 on the second panel. Before I 
introduce the first panel let me call on Senator Murkowski for 
her comments.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Good morning 
and welcome to those who will be presenting today. I do 
appreciate the timeliness of this hearing this morning or this 
oversight this morning as we try to better understand what is 
unfolding at the Fukushima Daiichi power plant in Japan.
    As you have pointed out, Mr. Chairman, it's probably too 
early for us to say that this situation is under control. I 
think it is important to recognize though that the workers who 
are there on a daily basis. The progress that they--are being 
made, hopefully positive steps being achieved there.
    But I think it is important to recognize. To really praise 
the very courageous efforts of those workers that are on the 
ground trying to stabilize the situation. They have been going 
round the clock for over 2 weeks now.
    Probably no doubt exhausted at the same time they're 
dealing with personal stress issues brought about by loss of 
loved ones, loss of their homes. It's perhaps easy for us in 
this country to be sitting back looking at the situation, 
picking at the issue. But we do need to keep in mind the very 
selfless acts that these individuals are embarking on everyday 
as they work to prevent further damage and to protect their 
fellow countrymen.
    Mr. Chairman, I do hope that this is an opportunity for us 
as a committee as well as other committees here in the Congress 
to really take away some lessons learned here. So I'll be 
listening with great interest this morning. As we continue in 
the weeks ahead to understand more of what has happened with 
this disaster in Japan.
    With that, I look forward to the testimony.
    The Chairman. Thank you very much.
    Our first panel is Dr. Peter Lyons, who, of course, is the 
Acting Assistant Secretary. We hope soon to be the Assistant 
Secretary of the Office of Nuclear Energy in the Department of 
Energy.
    Mr. Bill Borchardt, who is the Executive Director for 
Operations at the Nuclear Regulatory Commission.
    So why don't we go in that order unless you have a reason 
to go in a different order?
    Dr. Lyons, why don't you go right ahead and give us your 
perspective? Then Mr. Borchardt. Then we'll undoubtedly have 
some questions.

STATEMENT OF PETER LYONS, ACTING ASSISTANT SECRETARY, OFFICE OF 
              NUCLEAR ENERGY, DEPARTMENT OF ENERGY

    Mr. Lyons. Thank you.
    Chairman Bingaman, Ranking Member Murkowski and members of 
the committee, thank you for the opportunity to appear before 
you today to discuss the nuclear accident situation in Japan.
    The Department of Energy's response to that situation.
    Relevant research development and deployment programs 
within my office of Nuclear Energy.
    Let me briefly recap our current understanding of the still 
evolving events at the Fukushima Daiichi nuclear power plant 
with its 6 nuclear reactors, albeit with many gaps in our 
knowledge. When the earthquake on March 11 struck, the 3 
operating reactors shut down in accordance with operating 
procedures. Back up diesel generators started but were damaged 
by the tsunami. The operating units used battery power to 
continue to run their cooling pumps until the batteries were 
drained or the pumps failed.
    As the reactor cores heated from radioactive decay steam 
was produced. The pressure build up from that steam required 
venting which released some radioactive materials. It also 
lowered the water level in the three reactor pressure vessels, 
reducing the cooling of the core. It appears that all three 
reactor cores are damaged to unknown extents.
    Additionally as the fuel temperature increased, a reaction 
took place between the zirconium fuel cladding and the steam or 
water in the pressure vessel producing hydrogen. This hydrogen 
was vented along with the steam and may have ignited at all 
three reactors. Vision products have been released through 
these processes.
    Once pumper units were brought in sea water cooling was 
used for many days until fresh water supplies were available. 
Water levels at the spent fuel pools also have concern with 
some reports that at least one of them was empty for some time. 
Sea water is being used to cool those spent fuel pools until 
fresh water supplies are obtained.
    Current information suggests that the plants are in a slow 
recovery from the accident. However, long term cooling of the 
reactors and pools is essential during this period and has not 
been adequately restored to date to the best of my knowledge. A 
massive cleanup operation obviously remains for the future.
    To assist in our country's response the Nuclear Incident 
Team Operations Center at the Department of Energy was promptly 
activated and has been continuously staffed by NNSA and Office 
of Nuclear Energy personnel since the accident. The focus of 
all DOE activities led by the Operations Center has been to 
understand the accident progression and offer advice and 
assistance to the Japanese officials, who have the direct 
responsibility to manage the accident recovery. The Department 
of Energy has deployed about 40 people and more than 17,000 
pounds of equipment including NNSA's aerial measurement system 
and several so called Consequence Management Response Teams.
    The National Atmospheric Release Advisory Capability at the 
Livermore Laboratory has been modeling transport, potential 
transport of radioactive materials. The Office of Nuclear 
Energy has established a Nuclear Energy Response Team that is 
utilizing our national lab capabilities to analyze the 
situation and suggest approaches and industry teams providing 
important support both in Japan and here. In addition Secretary 
Chu and White House Science and Tech Advisor John Holdren have 
reached out to Laboratory Directors and other imminent 
scientists for technical advice.
    Beyond our response to the accident the research 
development and deployment programs of the Office of Nuclear 
Energy are highly relevant to future decisions about the 
potential options for nuclear power in the United States. As 
examples, our proposed small modular reactor program will 
explore designs that offer safety advantages through extensive 
use of passive systems. We're also conducting research and 
development at a high temperature gas reactor designs that 
offer inherent safety features. Our light water reactor 
sustainability program is exploring whether the lifetime of our 
operating reactors can be extended with no compromise in 
safety.
    Research in fuel cycles is also within the Office of 
Nuclear Energy. While we await guidance from the Blue Ribbon 
Commission on America's Nuclear Future, we're conducting 
research and development into a broad range of options for the 
nation's fuel cycle with careful attention to safety, 
environmental protection and non-proliferation. Safety of 
future systems is key to all of the DOE programs.
    Selected research areas like work on fuel claddings that 
cannot generate hydrogen in an accident or fuels that are 
virtually impossible to melt have various, obvious relevance. 
The new modeling and simulation hub based at Oak Ridge National 
Laboratory will be providing important new capabilities to the 
nuclear industry, capabilities that can be used to assess and 
improve the safety of existing and future reactors.
    I fully concur with the recent statement made by Deputy 
Secretary Dan Poneman. That we view nuclear energy as a very 
important component for the overall portfolio we are trying to 
build for a clean energy future. The programs of the Office of 
Nuclear Energy are focused on assuring that the option for safe 
nuclear power remains open to the nation.
    By way of concluding these brief comments the earthquake 
and the resulting tsunami brought tremendous devastation on 
Japan. At the Department of Energy and indeed throughout the 
Administration, we are making every effort to assist the 
Japanese people in their time of need. Thank you. I'll try to 
answer your questions.
    The Chairman. Thank you very much.
    Mr. Borchardt, go right ahead.

   STATEMENT OF R. WILLIAM BORCHARDT, EXECUTIVE DIRECTOR FOR 
           OPERATIONS, NUCLEAR REGULATORY COMMISSION

    Mr. Borchardt. Chairman Bingaman, Senator Murkowski, 
members of the committee, good morning. The staff of the NRC is 
deeply saddened by the tragedy in Japan. I and many of my 
colleagues on the NRC staff have had many years of very close 
professional and personal interaction with our regulatory 
counterparts in Japan. We would like to extend our condolences 
to them.
    The NRC is mindful that our primary responsibility is to 
ensure the adequate protection of the public health and safety 
of the American people. We have been very closely monitoring 
the activities in Japan and reviewing all available 
information. Review of this information combined with our 
ongoing inspection and licensing oversight allow us to say with 
confidence that the U.S. plants continue to operate safely. 
There has been no reduction in the licensing or oversight 
function of the NRC as it relates to any of the U.S. licensees. 
Notwithstanding the very high level of support being provided 
as a result of the events in Japan, we continue to maintain our 
focus on our domestic responsibilities.
    On Friday, March 11, an earthquake hit Japan resulting in 
the shutdown of more than ten reactors. From what we know now 
it appears that the reactor's response to the earthquake went 
according to design. The ensuing tsunami, however, appears to 
have caused the loss of normal and emergency alternating 
current power to 6 units at the Fukushima Daiichi site. It is 
those 6 units that have received the majority of our attention 
since that time.
    It's our assessment at this time that units 1, 2 and 3 have 
experienced some degree of core damage, but that they are 
currently stable and being cooled with fresh water. Units 2 and 
3 appear to have some primary containment damage. There have 
been releases of radioactivity that are a continuing 
significant concern, including significant contamination in the 
lower levels of the unit 2 and unit 3 turbine buildings.
    The spent fuel pools on units one through four have 
experienced varying water levels, but also have been receiving 
sea water from helicopter and spray systems. The unit 2 spent 
fuel pool has now started receiving fresh water. They are 
trying to change all of the units from fire trucks to normal 
pumping in the next few days. Tokyo Electric Power Company has 
restored electric power to the site and to the 6 reactor 
control rooms. The situation in general continues to further 
stabilize although there are many hurdles that remain.
    Shortly after four o'clock in the morning on Friday, March 
11, the NRC Emergency Operations Center made the first call to 
inform NRC management of the earthquake. We went into the 
monitoring mode at the Op Center as the first concern was for 
possible tsunami impacts on U.S. plants and radioactive 
materials on the West Coast and in Hawaii, Alaska and the U.S. 
territories in the Pacific. On that same day we began 
interactions with our Japanese regulatory counterparts and 
dispatched 2 experts to Japan to help at the U.S. Embassy. By 
Monday, March 14, we dispatched a total of 11 staff to Japan. 
We subsequently rotated in additional staff to continue our on 
the ground activities.
    The areas of focus for the NRC team in Japan are to assist 
the Japanese government with technical support as part of the 
USAID response and to support the U.S. Ambassador.
    While our focus now is on helping Japan in any way we can, 
the experience will also help us to assess the implications for 
U.S. citizens and the U.S. reactor fleet in as timely a manner 
as possible. Let me also just note here in concluding this 
section of my remarks that the U.S. Government has an extensive 
network of radiation monitors across the country. We feel 
confident, based on the current data for monitoring at nuclear 
power plants and through the Environmental Protection Agency's 
system, that there is no reason for concern in the U.S. 
regarding radioactive releases from Japan.
    I'll now turn to the factors that assure us of ongoing 
domestic reactor safety. We have since the beginning of the 
regulatory program in the United States, used the philosophy of 
defense-in-depth, which recognizes that nuclear reactors 
require the highest standards of design, construction, 
oversight and operation, and safety does not rely on any single 
level in order to protect the public health and safety. There 
are multiple physical barriers to fission product release at 
every reactor design. Beyond that, there are both diverse and 
redundant systems that are required to be maintained and in 
operable condition. They are frequently tested to ensure that 
the plant is in a high condition of readiness to respond to any 
scenario.
    Beyond this we've taken advantages of lessons learned from 
previous operating experience to implement a program of 
continuous improvement. We've learned from the experiences 
across a wide range of situations including the Three Mile 
Island accident in 1979. As a result of those lessons learned 
we significantly revised emergency planning requirements and 
emergency operating procedures.
    We've addressed many human factor issues regarding how 
control room employees operate the plant. We've added new 
requirements for hydrogen control to prevent explosions inside 
containment. We've also created requirements for enhanced 
control room displays showing the status of pumps and valves. 
We have a post accident sampling system that enables the 
monitoring of radioactive material release and possible fuel 
degradation. One of the most significant changes we made after 
Three Mile Island was the expansion of the Resident Inspector 
Program, which has at least 2 full time NRC employees on each 
and every site with unfettered access to all licensee 
activities, 24 hours a day, 7 days a week.
    As a result of the operating experience and ongoing 
research programs, we've developed requirements for severe 
accident management guidelines. Our program of continuous 
improvement based on this operating experience will now include 
evaluation of the significant events in Japan. We've already 
begun enhancing inspection activities through temporary 
instructions to our inspection staff to look at the licensee's 
readiness to deal with both design basis accidents and beyond 
design basis accidents. We've also issued an information notice 
to licensees to make them aware of events in Japan and advising 
them to verify their capabilities to mitigate the conditions 
that result from severe accidents.
    Over the past 20 years there have been a number of new 
rulemakings that have enhanced the domestic fleet's 
preparedness against some of the problems we're seeing in 
Japan. For example, the station blackout rule requires every 
plant in the country to have analyzed what the plant response 
would be if it were to lose all alternating current so that it 
could respond using batteries for a period of time. Then have 
procedures in place to restore alternating current to the site.
    The hydrogen rule requires modifications to reduce the 
impact of hydrogen generated for beyond design basis events.
    Regarding the type of containment design used by most of 
the heavily damaged plants in Japan, we've had a boiling water 
reactor, Mark 1, containment improvement program since the late 
1980s. This has required the installation of hardened vent 
systems for containment pressure relief, as well as enhanced 
reliability of the automatic depressurization system.
    Beyond the initial steps to address the experience from 
Japan, the Chairman of the NRC with the full support of the 
Commission has directed the NRC staff to establish a Senior 
Level Agency Task Force to conduct a methodical and systematic 
review of our processes and regulations to determine whether 
the agency should make additional improvements to our 
regulatory system and make recommendations to the Commission 
for its policy direction. This activity will have both near 
term and longer term objectives.
    For the near term we're beginning a 90-day review. This 
review will evaluate all of the currently available information 
from the Japanese event to identify immediate or near term 
operational or regulatory issues potentially affecting any of 
the 104 operating reactors including the spent fuel pools. 
Areas of investigation will include the ability to protect 
against natural disasters, response to station blackouts, 
severe accidents, spent fuel accident progression, radiological 
consequence analysis, and severe accident management. Over this 
90-day period we will develop recommendations, as appropriate, 
for changes to the inspection procedures and licensing 
guidance, and recommend whether generic communications, orders, 
or other regulatory requirements are needed.
    The Task Force's longer term review will begin as soon as 
the NRC has sufficient information from the events in Japan. 
The Task Force will evaluate all the technical and policy 
issues related to the event to identify additional potential 
research, generic issues, changes to the reactor oversight 
program, rulemakings, or adjustments to the regulatory 
framework. A report with the appropriate recommendations will 
be provided to the Commission within 6 months of the start of 
this evaluation. Both the 90-day report and the final report 
will be made publicly available in accordance with normal 
Commission procedures.
    In conclusion I want to reiterate that we continue to make 
our domestic responsibilities for licensing and oversight of 
the U.S. fleet our top priority and that the U.S. plants 
continue to operate safely. At the same time, we are 
undertaking a thorough look at the events in Japan and their 
lessons for us. Based on these efforts we will take all 
appropriate actions necessary to ensure the continuing safety 
of U.S. nuclear power plants.
    Thank you.
    [The prepared statement of Mr. Borchardt follows:]
  Prepared Statement of R. William Borchardt, Executive Director for 
               Operations, Nuclear Regulatory Commission
    The staff of the U.S. Nuclear Regulatory Commission is deeply 
saddened by the tragedy in Japan. I and many of my colleagues on the 
NRC staff have had many years of very close and personal interaction 
with our regulatory counterparts and we would like to extend our 
condolences to them.
                              introduction
    The NRC is mindful that our primary responsibility is to ensure the 
adequate protection of the public health and safety of the American 
people. We have been very closely monitoring the activities in Japan 
and reviewing all currently available information. Review of this 
information, combined with our ongoing inspection and licensing 
oversight, allows us to say with confidence that the U.S. plants 
continue to operate safely. There has been no reduction in the 
licensing or oversight function of the NRC as it relates to any of the 
U.S. licensees.
    We have a long history of conservative regulatory decision-making. 
We have been using risk insights to help inform our regulatory process, 
and, over more than 35 years of civilian nuclear power in this country, 
we have never stopped making improvements to our regulatory framework 
as we learn from operating experience.
    Notwithstanding the very high level of support being provided to 
respond to events in Japan, we continue to maintain our focus on our 
domestic responsibilities.
    I'd like to begin with a brief overview of our immediate and 
continuing response. I then want to spend the bulk of my time 
discussing the reasons for our confidence in the safety of the U. S. 
commercial nuclear reactor fleet, and the path forward that we will 
take to ensure we learn any lessons we need to from events in Japan.
     the nrc's immediate and continuing response to events in japan
    On Friday, March 11th an earthquake hit Japan, resulting in the 
shutdown of more than 10 reactors. From what we know now, it appears 
possible that the reactors' response to the earthquake went according 
to design. The ensuing tsunami, however, appears to have caused the 
loss of normal and emergency AC power to the six units at the Fukushima 
Daiichi site; it is those six units that have received the majority of 
our attention since that time. Units One, Two, and Three at the site 
were in operation at the time of the earthquake. Units Four, Five, and 
Six were in previously scheduled outages.
    Shortly after 4:00 AM EDT on Friday, March 11th, the NRC Emergency 
Operations Center made the first call, informing NRC management of the 
earthquake and the potential impact on U.S. plants. We went into the 
monitoring mode at the Emergency Operations Center and the first 
concern for the NRC was possible impacts of the tsunami on U.S. plants 
and radioactive materials on the West Coast, and in Hawaii, Alaska, and 
U.S. Territories in the Pacific.
    On that same day, we began interactions with our Japanese 
regulatory counterparts and dispatched two experts to help at the U.S. 
embassy in Japan. By Monday, we had dispatched a total of 11 staff to 
Japan. We have subsequently rotated in additional staff to continue our 
on-the-ground assistance in Japan. The areas of focus for this team 
are: 1) to assist the Japanese government with technical support as 
part of the USAID response; and 2) to support the U.S. ambassador. 
While our focus now is on helping Japan in any way that we can, the 
experience will also help us assess the implications for U.S. citizens 
and the U.S. reactor fleet in as timely a manner as possible.
    We have an extensive range of stakeholders with whom we have 
ongoing interaction, including the White House, Congressional staff, 
our state regulatory counterparts, a number of other federal agencies, 
and international regulatory bodies around the world.
    The NRC response in Japan and our Emergency Operations Center 
continue with the dedicated efforts of over 250 NRC staff on a rotating 
basis. The entire agency is coordinating and pulling together in 
response to this event so that we can provide assistance to Japan while 
continuing the normal activities necessary to fulfill our domestic 
responsibilities.
    Let me also just note here in concluding this section of my remarks 
that the U.S. government has an extensive network of radiation monitors 
across this country. Monitoring equipment at nuclear power plants and 
in the U. S. Environmental Protection Agency's (EPA) system has not 
identified any radiation levels of concern in this country. In fact, 
natural background radiation from sources such as rocks, the sun, and 
buildings, is 100,000 times more than doses attributed to any level of 
the radiation from this event that has been detected in the U.S. to 
date. Therefore, we feel confident, based on current data, that there 
is no reason for concern in the United States regarding radioactive 
releases from Japan.
    continuing confidence in the safety of u.s. nuclear power plants
    I will now turn to the factors that assure us of ongoing domestic 
reactor safety. We have, since the beginning of the regulatory program 
in the United States, used a philosophy of Defense-in-Depth, which 
recognizes that nuclear reactors require the highest standards of 
design, construction, oversight, and operation, and does not rely on 
any single layer for protection of public health and safety. We begin 
with designs for every individual reactor in this country that take 
into account site-specific factors and include a detailed evaluation 
for any natural event, such as earthquakes, tornadoes, hurricanes, 
floods, and tsunamis, as they relate to that site.
    There are multiple physical barriers to radiation in every reactor 
design. Additionally, there are both diverse and redundant safety 
systems that are required to be maintained in operable condition and 
frequently tested to ensure that the plant is in a high condition of 
readiness to respond to any scenario.
    We have taken advantage of the lessons learned from previous 
operating experience to implement a program of continuous improvement 
for the U.S. reactor fleet. We have learned from experience across a 
wide range of situations, including most significantly, the Three Mile 
Island accident in 1979. As a result of those lessons learned, we have 
significantly revised emergency planning requirements and emergency 
operating procedures. We have addressed many human factors issues 
regarding how control room employees operate the plant, added new 
requirements for hydrogen control to help prevent explosions inside of 
containment, and created requirements for enhanced control room 
displays of the status of pumps and valves.
    The NRC has a post-accident sampling system that enables the 
monitoring of radioactive material release and possible fuel 
degradation. One of the most significant changes after Three Mile 
Island was expansion of the Resident Inspector Program, which has at 
least two full-time NRC inspectors on site at each nuclear power plant. 
These inspectors have unfettered access to all licensees' activities.
    As a result of operating experience and ongoing research programs, 
we have developed requirements for severe accident management 
guidelines. These are components and procedures developed to ensure 
that, in the event all of the above precautions failed and a severe 
accident occurred, the plant would still protect public health and 
safety. The requirements for severe accident management have been in 
effect for many years and are frequently evaluated by the NRC 
inspection program.
    As a result of the events of September 11, 2001, we identified 
important pieces of equipment that, regardless of the cause of a 
significant fire or explosion at a plant, we want licensees to have 
available and staged in advance, as well as new procedures, training 
requirements, and policies that would help deal with a severe 
situation.
    Our program of continuous improvement based on operating experience 
will now include evaluation of the significant events in Japan as well 
as what we can learn from them. We already have begun enhancing 
inspection activities through temporary instructions to our inspection 
staff, including the resident inspectors and the region-based 
inspectors in our four Regional offices, to look at licensees' 
readiness to deal with both the design basis accidents and the beyond-
design basis accidents. The information that we gather will be used to 
evaluate the industry's readiness for similar events, and will aid in 
our understanding of whether additional regulatory actions need to be 
taken in the immediate term.
    We have also issued an information notice to the licensees to make 
them aware of the events in Japan, and the kinds of activities we 
believe they should be engaged in to verify their readiness. 
Specifically, we have requested them to verify that their capabilities 
to mitigate conditions that result from severe accidents, including the 
loss of significant operational and safety systems, are in effect and 
operational. Licensees are verifying the capability to mitigate a total 
loss of electric power to the nuclear plant. They also are verifying 
the capability to mitigate problems associated with flooding and the 
resulting impact on systems both inside and outside of the plant. Also, 
licensees are confirming the equipment that is needed is in place for 
the potential loss of equipment due to seismic events appropriate for 
the site, because each site has its own unique seismic profiles.
    During the past 20 years, there have been a number of new 
rulemakings that have enhanced the domestic fleet's preparedness 
against some of the problems we are seeing in Japan. The ``station 
blackout'' rule requires every plant in this country to analyze what 
the plant response would be if it were to lose all alternating current 
so that it could respond using batteries for a period of time, and then 
have procedures in place to restore alternating current to the site and 
provide cooling to the core.
    The hydrogen rule requires modifications to reduce the impacts of 
hydrogen generated for beyond-design basis events and core damage. 
There are equipment qualification rules that require equipment, 
including pumps and valves, to remain operable under the kinds of 
environmental temperature and radiation conditions that you would see 
under a design basis accident. With regard to the type of containment 
design used by the most heavily damaged plants in Japan, the NRC has 
had a Boiling Water Reactor Mark I Containment Improvement Program 
since the late 1980s, which has required installation of hardened vent 
systems for containment pressure relief, as well as enhanced 
reliability of the automatic depressurization system.
    The final factor I want to mention with regard to our belief in the 
ongoing safety of the U.S. fleet is the emergency preparedness and 
planning requirements in place that provide ongoing training, testing, 
and evaluations of licensees' emergency preparedness programs. In 
coordination with our federal partner, the Federal Emergency Management 
Administration (FEMA), these activities include extensive interaction 
with state and local governments, as those programs are evaluated and 
tested on a periodic basis.
                             the path ahead
    Beyond the initial steps to address the experience from the events 
in Japan, the Chairman, with the full support of the Commission, 
directed the NRC staff to establish a senior level agency task force to 
conduct a methodical and systematic review of our processes and 
regulations to determine whether the agency should make additional 
improvements to our regulatory system and make recommendations to the 
Commission for its policy direction. This activity will have both near-
term and longer-term objectives.
    For the near term effort, we are beginning a 90-day review. This 
review will evaluate all of the currently available information from 
the Japanese events to identify immediate or near-term operational or 
regulatory issues potentially affecting the 104 operating reactors in 
the U.S., including their spent fuel pools. Areas of investigation will 
include the ability to protect against natural disasters, response to 
station blackouts, severe accidents and spent fuel accident 
progression, radiological consequence analysis, and severe accident 
management issues regarding equipment. Over this 90-day period, we will 
develop recommendations, as appropriate, for changes to inspection 
procedures and licensing review guidance, and recommend whether generic 
communications, orders, or other regulatory requirements are needed.
    This 90-day effort will include a 30-day ``Quick Look Report'' to 
the Commission to provide a snapshot of the regulatory response and the 
condition of the U.S. fleet based on information we have available at 
that time. Preparing a ``Quick Look Report'' will also ensure that the 
Commission is both kept informed of ongoing efforts and prepared to 
resolve any policy recommendations that surface. I believe we will have 
limited stakeholder involvement in the first 30 days to accomplish 
this. However over the 90-day and longer-term efforts we will seek 
additional stakeholder input. At the end of the 90-day period, a report 
will be provided to the Commission and to the public. The task force's 
longer-term review will begin as soon as the NRC has sufficient 
technical information from the events in Japan.
    The task force will evaluate all technical and policy issues 
related to the event to identify additional potential research, generic 
issues, changes to the reactor oversight process, rulemakings, and 
adjustments to the regulatory framework that should be pursued by the 
NRC. We also expect to evaluate potential interagency issues, such as 
emergency preparedness, and examine the applicability of any lessons 
learned to non-operating reactors and materials licensees. We expect to 
seek input from stakeholders during this process. A report with 
appropriate recommendations will be provided to the Commission within 6 
months of the start of this evaluation. Both the 90-day and final 
reports will be made publicly available in accordance with normal 
Commission processes.
                               conclusion
    In conclusion, I want to reiterate that we continue to make our 
domestic responsibilities for licensing and oversight of the U.S. 
licensees our top priority and that the U.S. plants continue to operate 
safely. In light of the events in Japan, there is a near-term 
evaluation of their relevance to the U.S. fleet underway, and we are 
continuing to gather the information necessary for us to take a longer, 
more thorough look at the events in Japan and their lessons for us. 
Based on these efforts, we will take all appropriate actions necessary 
to ensure the continuing safety of the U.S. fleet.

    The Chairman. Thanks to both of you for that testimony. Let 
me start with questions. We'll have 5 minute round of 
questions.
    On the Fukushima Daiichi plant let me ask if there have 
been reports about high levels of radioactive water, 
radioactivity in the water that is found in the turbine 
building's basements. Do we know what the source of that 
radioactive water is? Do we know the extent of the problem that 
that could create going forward?
    Either of you?
    Mr. Borchardt. Yes. We have very limited information on 
this as with many other aspects. But we believe that the water 
is the result of the bleed and feed process that they have been 
using to keep water in the reactor cores and in the containment 
of the units.
    It is leaking out. The exact flow path of that leakage has 
not been determined. But it is a result of the water that 
they've been injected since shortly after the onset of the 
event.
    Mr. Lyons. I can add to that, Senator.
    The Chairman. Yes, go ahead.
    Mr. Lyons. About complications. As I noted, it is essential 
that they restore dependable, long term cooling to those 
systems. The existence of the high backgrounds from that leak 
water, whatever the source, are certainly complicating those 
efforts.
    The Chairman. OK.
    Let me ask about the thrust to use passive safety features 
and passive designs and get to a point where if power fails you 
don't have this kind of potential for crisis that we've seen 
occur in Japan. To what extent are we trying to ensure that 
those passive type designs and systems and safety features be 
put in place in our nuclear power plants?
    Mr. Borchardt. In the United States there are 2 principle 
reactor designs that are called passive reactor designs. The 
reason they're called passive is because, as you mentioned, 
they don't rely on alternating current in order to respond to 
an event of this magnitude. There are no pumps that need to 
start and run off of alternating current. Any valves that need 
to change position change because of stored air, a pneumatic 
system or off of a DC battery power supply.
    Then once they're running, they rely on natural processes 
like gravity in order to create a water flow to keep the core 
cool. These are designs that have undergone extensive NRC 
review. They are receiving approval.
    In fact, there are designs that are being planned for 
construction in the United States that utilize this design 
concept.
    The Chairman. But I'm right in thinking that none of the 
104 currently operating plants have these design features in 
them at the current time. Is that right?
    Mr. Borchardt. That's correct.
    The Chairman. Yes, Dr. Lyons.
    Mr. Lyons. Senator Bingaman, just a comment that the small 
modular reactors that are of great interest looking into the 
future in our program, each of the light water, small modular 
systems that has been proposed is a highly passive system. 
That's certainly one of the aspects that we look toward in 
terms of the potential for the future of the small modular 
systems as well.
    The Chairman. OK.
    Mr. Borchardt, let me ask you on re-licensing. I gather 
that there are quite a few nuclear power plants in this country 
that are scheduled for re-licensing or at least are going to be 
applying for re-licensing sometime in the next few years. To 
what extent do you think this development in Japan will impact 
on the actions of the Nuclear Regulatory Commission on those 
re-licensing applications? Is there any way to judge that at 
this point?
    Mr. Borchardt. Senator, as you mentioned, over half of the 
104 operating reactors in the United States have already 
received a license renewal for an additional 20 years of 
operation. We expect that the other half will continue with 
either an in-process license renewal review or they will apply 
for a license renewal in the future. It is our intent through 
the lessons learned programs and our continuous operational 
oversight of the operating fleet that if there was a design 
change necessary in order to adapt the plants to what we're 
learning from Japan, that we would take that action absent or 
outside of the license renewal review process. We would take 
that without hesitation.
    So there's no technical reason that I'm aware of that this 
would impact the license renewal process for the remaining 
plants in the U.S.
    The Chairman. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Gentlemen, 
thank you.
    Mr. Borchardt, you mentioned the task force and the 90-day 
review that you will be undertaking here. So much of what we 
need to learn, of course, we're not able to know at this point 
in time because we cannot safely go into the facility. Do we 
have any idea how long we are looking at to get these units 
cooled down so that in fact we can enter the area, examine the 
reactors, look at the spent fuel? What do you anticipate?
    Mr. Borchardt. I really can't even hazard a guess on how 
long that will be. But the reason that we're approaching with a 
90-day lessons learned immediately is because we didn't want to 
wait for whenever that time period is. We think that there are 
things we can evaluate, should evaluate, immediately. That's 
why we're beginning that review.
    Senator Murkowski. Dr. Lyons.
    Mr. Lyons. Senator Murkowski, just as a possible addition 
to that. The Department has provided information to the 
government of Japan on radiation hardened robotic capabilities 
available within the country. A shipment is being readied. I 
don't know if it has left yet.
    But there will be radiation hardened robotics available 
soon. I can't say exactly when, in Japan, which could provide 
some of the information that you're asking about. Certainly not 
all we need, but some.
    Senator Murkowski. Do I understand correctly that Japan did 
not have any of the robotics that we are making available to 
them at this time?
    Mr. Lyons. I can't speak to whether such capabilities are 
available in Japan. I can only speak that the government of 
Japan has been very, very interested in understanding the 
capabilities that can be brought to bear from this country and 
we have provided that information. They have identified needs. 
We're moving expeditiously to ship, not only the robots, but 
also operators who perhaps will be used to train Japanese 
operators. We don't know yet how close it will be necessary for 
the operators to be to the site.
    Senator Murkowski. Let me ask a question about the 
decisionmaking process at the NRC to evacuate U.S. residents. 
The decision was made for evacuation with a 50-mile radius 
within the reactor itself. Of course, initially the 
determination from the Japanese was that it was 12 and a half 
miles. Then they bumped that to 19 miles.
    Can you tell me how this decision was reached? Who made it? 
Was it a vote of all the Commissioners? How did you conclude 
that 50 miles was the appropriate evacuation range?
    Mr. Borchardt. The factors that were taken into 
consideration include all the indications that we had a strong 
belief that there was likely fuel damage in three reactors. 
There were degraded water level conditions in at least 2 of the 
spent fuel pools at the time. There were elevated radiation 
releases from those plants.
    Given those realities and then given the uncertainty of the 
progression at that time, we ran some models to see what kind 
of releases would be possible under those scenarios. Made the 
conservative decision that although the conditions did not 
exist at that instant to require an evacuation, we thought that 
it was a conservative and prudent recommendation to make.
    Senator Murkowski. You mentioned the radiation monitoring 
units that we have in place. Alaska received 3 that we 
understand are up. I hope that all three are up now.
    But there's a lot of concern about what may end up in our 
oceans, impact to the fisheries. Do we have radiation monitors 
off of Honshu that are measuring anything in the ocean or is it 
just monitors that are evaluating the air?
    Mr. Lyons. The Department of Energy systems are, as I 
mentioned, the airborne system that is monitoring ground 
contamination, but not out over the ocean. It's the EPA, 
through their RadNet has made the monitors that you mentioned 
in Alaska. Guam, Hawaii has added several additional monitors. 
I am not aware of monitoring capability within the ocean that 
we have. That certainly could be added if it was deemed 
necessary.
    I should add that the Department of Energy through the 
calculational capabilities at Livermore using the source terms 
developed by the Nuclear Regulatory Commission as being the 
worse cases. We do not anticipate a significant health effect 
in any of the United States areas.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. Good morning to the 
panelists. Thank you for being here.
    I think we begin to learn that just because an event is 
improbable, doesn't mean that it's impossible. In that spirit, 
let me turn to the design of the spent fuel pools. It seems 
like, based on what you've told us this morning, that's a key 
part of the ongoing crisis there at Daiichi.
    I understand that the same design is employed at almost a 
quarter of our plants here in the U.S. It seems like this is a 
design flaw. I'm surprised we hadn't addressed it previously. 
But what are we doing now and what can we do to address it in 
the months and the years ahead?
    Mr. Borchardt. Even after the events of 9/11 the NRC took a 
concerted review effort to look at risks to the plants 
regardless of the cause. One of the issues that we looked at is 
optimizing the ways that you can fill the spent fuel pool and 
keep water injected into the reactor vessel to keep the core 
cool. So there are a number of both procedures and pieces of 
equipment that can be put into place in order to keep the spent 
fuel pool full.
    So that has been greatly enhanced, as well as having a 
backup system and power supplies to do the same thing.
    Senator Udall. Dr. Lyons, do you have thoughts both from 
the point of view of the Department of Energy but I would 
certainly welcome your personal opinions on ways in which we 
can make spent fuel broad storage systems safer and moving 
forward?
    Mr. Lyons. Senator Udall, I was on the NRC as we conducted 
many of those evaluations, extremely careful evaluations of the 
safety of the existing spent fuel pools and dry casks. Using 
the best information available at the time those both storage 
systems were deemed to be safe. I look forward to the review 
that will be conducted by the NRC, as Bill said, the pools will 
certainly be part of that review. Whether that will lead to any 
suggestions for changes, I await their review.
    I do not have concerns today based on the NRC studies to 
date.
    Senator Udall. I know you have an official point of view, 
but personally do you have any other thoughts about how we 
might make spent fuel rod storage safer in the future, just 
thinking creatively, thinking as the engineer that I know you 
are?
    Dr. Lyons. Senator Udall, I think my comments should say 
that we should await the review of the NRC. We certainly 
include within our program's research on the longevity of dry 
cask storage that may prove to be relevant in these 
discussions. But that would be the main area that I can think 
of offhand that would be applicable to your question.
    Senator Udall. I believe there is a design where the spent 
fuel rods are stored in the basement or the lower level.
    Mr. Lyons. Yes, that will be the case on the--I'm sorry.
    Senator Udall. Yes, and I was just going to talk about the 
engineering challenges to do so. I have to believe that it's 
easiest to bring the fuel rods out of the reactor at the top. 
Then you move them at that same level into these spent fuel 
rods. But they're 5 or 6 stories up in the air. Gravity works 
against us in that kind of situation.
    Mr. Lyons. Bill can help me on this. But I believe all of 
the PWR pressurized water reactors in this country utilize 
ground level or near ground level storage of the spent fuel 
poles. Knowing of your interest in the small modular reactors 
with their underground siting, the intent there is that spent 
fuel pools would be sited well underground in those designs.
    Senator Udall. I appreciate your mentioning of that new 
technology, that new engineering approach.
    Mr. Borchardt, did you want to comment?
    Mr. Borchardt. Yes, Senator, I'll just mention that it was 
really the difference between the boiling water reactors that 
are above grade and the pressurized water reactors that are 
near ground level is really just one of the original design 
philosophy during the early development of those designs, 
probably in the 1950s and 1960s. So there isn't really a 
technical barrier that would prevent changing that 
configuration for a new design.
    Senator Udall. Thank you, gentlemen. My time is about to 
expire. But again this is obviously a very timely topic.
    I look forward to working with you as we move forward to 
understanding what's happened. I think we're all frustrated 
with the various kinds of information, that's often 
contradictory, coming out of Japan. For the record I will ask 
you both to comment on how we could do a better job given a 
situation developing in our own country. I think that's added 
to the sense that this is out of control and the improbable has 
become actually the possible. So thank you for being here 
today.
    Mr. Lyons. Certainly.
    Mr. Borchardt. Thank you.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman. Thank you for 
having this briefing and the 2 of you for being here. Obviously 
working together to try to deal with this issue in the best way 
that we can.
    Senator Udall actually went down a line of questioning that 
is similar to mine. On the quarter of the reactors that we have 
that are boiling water reactors here in our country. Is it your 
sense that over the course of time we've done things to 
alleviate the same type of risk in our own country?
    Mr. Borchardt. Yes, sir. As I mentioned we've done a number 
of improvements to the design. Some were not specific to the 
boiling water reactors, but included both pressurized and 
boiling water reactors like the station blackout rule, which 
looks at the loss of alternating current, complete loss at a 
site.
    There are things that are specific to boiling water 
reactors, which is the hardened vent that's the way to relieve 
pressure from inside the containment. That is a design 
improvement. We've required the inerting inside the containment 
that's to prevent the possibility of an explosion by having the 
containment inerted with nitrogen.
    Again, generically for all reactor designs, we've looked at 
severe accident mitigation guidelines. These are programs and 
procedures, pieces of equipment that exist in the plants. That 
say even with all the careful design, all the design 
requirements we've imposed, what if the unthinkable still 
happens? We should have systems in place to adapt to that. So 
we've done those at all of the plants in the country.
    Senator Corker. So I'll knock on wood as I ask this 
question. I mean, your sense is that you've seen nothing that's 
occurred in Japan thus far that you haven't already tried to 
engineer or change in our own existing facilities of that 
nature?
    Mr. Borchardt. I would say that's true. But that's why 
we're doing this extensive, both short term and longer term 
review. So that we can do a thorough analysis and make sure 
that we're not missing something.
    Senator Corker. You know, Senator Udall asked a little bit 
about the storage situations. I know we've had a debate in this 
country that is sort of stalled out at present. But we've 
looked at a national repository. I mean one of the reasons we 
have these spent fuel rods onsite as we do in this country is 
we never came to an agreement about what we might do with them 
over the long haul.
    Are there any editorial comments you all might make about 
regional or national repositories or?
    Mr. Lyons. Senator Corker, I think the main comment I'd 
make is that the Secretary created the Blue Ribbon Commission 
to look at the back end of the fuel cycle to include 
repository, possible reprocessing issues. That Commission which 
certainly includes a number of technical and other leaders from 
around the country is fairly close to their interim report 
anticipated in July. Personally I'm very hopeful that that 
report will provide some important suggestions and perhaps 
guidelines as the Nation moves forward with this challenge.
    Senator Corker. But you don't want to state what you hope 
those guidelines say, I guess. You'll wait.
    It will be interesting to see. It certainly at some point 
would love to hear comments about a catastrophe of this nature 
happening and how that might have affected things if they had 
had a different type of storage mechanism.
    Back to the SMUs, the small modular reactors. They utilize 
a more of a natural cooling process. I too am very interested 
in that technology. I'm hoping we're getting ready to move 
ahead. You know, these are reactors where U.S. you know, U.S. 
engineering can be more greatly deployed and certainly at 
lesser capital up front.
    That more natural cooling process that occurs, is there 
anything about this recent disaster that makes you feel those 
are going to be even more useful to us or more safe or less 
safe? Have you learned anything from the Japanese incident 
regarding them?
    Mr. Lyons. Senator Corker, I don't know specific from the 
Japanese incident but in general as we discussed earlier those 
small modular reactors that we're interested in would have 
highly passive systems. They would rely as Bill Borchardt 
already noted, on natural forces, on gravity, on convection. 
They would not require pumps.
    At least one obvious concern in Japan has been the loss of 
AC power, the loss of the pumping capability. That would not be 
an issue for a highly passive system such as we're exploring 
for the SMRs.
    Senator Corker. I assume what you're saying is that some of 
the failures that have occurred recently in Japan likely would 
not occur with these SMUs.
    Mr. Lyons. At least the small modular reactors would not 
depend on the use of pumps in an accident situation. So that is 
one very, very major difference. The designs in Japan are very 
much dependent on such pumping capability.
    Senator Corker. Now I know my time is up. This is a yes/no. 
I'll move quickly.
    The Japanese Ministry of Economy and Trade sort of does 
what--they sort of do both sides of the equation. They promote 
nuclear, Japanese nuclear products. They also regulate them.
    Have you seen any issue there as it relates to lack of 
oversight because of that dual mandate?
    Mr. Borchardt. Senator, no, we're not aware of any 
interference. There is a very strong focus internationally 
about independence of the regulator. There has recently been an 
IAEA review done of the Japanese regulator and they did not 
identify any of that kind of interference concern that I think 
you're referring to.
    Senator Corker. Thank you, Mr. Chairman.
    The Chairman. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman. Thank you, 
Gentlemen for your testimony.
    In the 2006 report published by the National Academies, 
they recommended that the spent fuel rods stored in pools 
onsite should be arranged to place old, cool fuel rods next to 
newer hotter rods to prevent hot spots and fires in the event 
that the pools lost enough water to cover the rods. In an 
editorial in the Washington Post on March 24, Matthew Bunn 
wrote that despite these recommendations ``no such action has 
been taken either in the United States or in Japan.'' Mr. 
Borchardt, does the National Regulatory Commission have plans 
to review these recommendations and possibly implement them?
    Mr. Borchardt. Senator I believe, and you can ask perhaps 
the next panel, but I believe it's a common practice to do such 
a thing at the plants in the United States that there is a 
movement of fuel in order to optimize the storage conditions in 
the spent fuel pool. But we would certainly----
    Senator Franken. That's at odds with what was written in 
the Post. But we'll ask the next panel.
    Mr. Borchardt. Sir.
    Senator Franken. We have a nuclear plant in Monticello, 
Minnesota that basically is the same design as the Fukushima 
reactors. You know, we're not going to have, probably an 
earthquake in Minnesota and we're probably if we have a tsunami 
there we probably got bigger problems.
    [Laughter.]
    Senator Franken. But we do have floods. Is there any chance 
that the backup generation of places like Prairie Island in 
Minnesota or Monticello could be overwhelmed by unforeseen 
levels of flooding?
    Mr. Borchardt. Monticello and every other plant in the 
country has an extensive review done before original licensing 
that looks at that specific site and looks at the historical 
record for things like flooding, tornados, hurricanes, 
tsunamis, earthquakes, and does a review using that historical 
record to make sure that that plant can respond to all of the 
kinds of natural events that happen.
    Senator Franken. Do they do those kinds of reviews in 
Japan?
    Mr. Borchardt. I can't really speak to that. I know they 
do----
    Senator Franken. Wouldn't that be----
    Mr. Borchardt. Some part of design basis--they consider 
some of those factors, but the specifics of how Japan did their 
licensing site reviews, I don't know.
    Senator Franken. Wouldn't that be a good thing to know?
    Mr. Borchardt. Certainly. Yes, sir.
    Senator Franken. OK. I would suggest hopping right on that.
    On terms of the cost of nuclear power has the events in 
Fukushima changed any sense of what the costs of nuclear power 
is vis-a-vis other sources of electricity? Either of you?
    Mr. Lyons. At least the way I would respond, Senator, would 
be that that remains for the results of the NRC evaluation.
    Senator Franken. OK.
    Mr. Lyons. To the extent that they identify needed changes 
then that might change the cost equation. But I couldn't 
speculate for now.
    Senator Franken. OK. Fine.
    Let's say that we have a few reactors--what happened here 
is we had a very large earthquake and then a tsunami. Are there 
any reactors in the United States, say in California, that are 
built near faults and oceans or just one ocean?
    [Laughter.]
    Mr. Borchardt. Of course there are and, as I mentioned in 
my previous answer, what we do is we look at the earthquake 
history for the plants in California, for example, and do an 
evaluation of the distance and the conditions that would be 
felt on the site. So you have to consider what kind of soil and 
formations exist between the fault line and the plant. That 
distills down to how much motion you will see at the plant.
    The systems have to be designed to withstand that motion 
plus a little bit more. There's always margins that are built 
into the reviews. The same is done looking at flooding or 
tsunamis and other natural events.
    So that's part of the design basis. Every plant therefore 
has its own design basis and will have its own requirements 
based upon its specific geographic location.
    Senator Franken. I see. Again, your testimony is you're not 
aware of whether or not they did that same kind of analysis in 
Japan?
    Mr. Borchardt. That's right. I can't speak to the Japanese 
design criteria.
    Senator Franken. OK. Because my feeling is they didn't 
expect this. Thank you.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman. Thank you both 
for being here today.
    There are going to be ongoing lessons learned from this 
tragedy. That's going to continue the situation on the ground 
actually, still is evolving. Our focus is clearly helping the 
Japanese people get through this disaster. I was happy to see 
Secretary Chu publicly assuring Americans that the people in 
the United States are in no danger from the tragedy in Japan. 
He's also indicated that the Administration supports building 
additional nuclear power plants.
    Senator Corker talked about needs to finalize a long term 
solution for storage of nuclear waste. The Administration has 
stopped the long term nuclear storage facility and has created 
the Blue Ribbon Commission to look at the problem. As you 
discussed, you said we'd have a report possibly in July.
    Fundamentally is it safer to store nuclear waste in 
temporary storage facilities around the country or at a 
permanent disposal site?
    Dr. Lyons.
    Mr. Lyons. Senator Barrasso, the way I would respond is 
that the NRC would evaluate both. Both can be made safe and 
their requirements would assure that safety.
    Senator Barrasso. Mr. Borchardt.
    Mr. Borchardt. I agree with Dr. Lyons.
    Senator Barrasso. When you talk about the report and I 
think you said, hopefully soon, perhaps July. You think that 
that Commission will have an opportunity then to really learn 
the lessons of what we've seen happening in Japan to apply 
those or will we have a report they've been working on and 
they're kind of ready to put out from preparation prior to the 
current disaster that we're studying?
    Mr. Lyons. Senator Barrasso, I don't have any detailed 
information of what they will have in that report. That should 
be left up to them. But the report in July is their so-called 
interim report. It is due July 29.
    The plan after that interim was to allow 6 months for 
public comment, further refinement and the final report in 
January of next year. In response then to your question I think 
there's very adequate time for the BRC to take whatever lessons 
may be necessary from Japan and at least incorporate it in the 
final, if not the interim.
    Senator Barrasso. The more recent news, Reuters reported 
this morning that plutonium has been found in the soil at the 
nuclear complex. I mean, it was the reactor No. 3 was the only 
one to use plutonium in the fuel mix, may indicate a breach in 
the containment mechanism. Could you speak to that?
    Mr. Lyons. At least the reports that I saw were reporting 
trace levels of plutonium. The report I saw was that it was 
still debatable exactly what those levels were derived from. 
All operating reactors whether they start with any plutonium in 
the fuel or not, build up plutonium in the course of operation.
    So finding plutonium, it was derived from either the 
operating reactors or the spent fuel pools, would not be 
regarded as a major surprise. Certainly it would be a concern 
if it were in significant levels. At least anything I've seen 
was it's not significant at this point.
    Senator Barrasso. Then the New York Times today reported 
that highly contaminated water, I think Senator Bingaman 
commented on this, could actually leak into the ocean. What are 
the implications of that?
    Mr. Lyons. Certainly that has to be monitored from the 
standpoint of fisheries from food products. There are other 
agencies in our government that would be tracking whether there 
were any concerns from a U.S. perspective on that. Certainly 
the Japanese have adequate resources to be verifying that from 
their own standpoint.
    I think it's fair, certainly from the Department of 
Energy's standpoint and I would guess from the NRC's 
standpoint, our focus now very, very much is on controlling the 
accident, stabilizing the accident and trying to move toward a 
situation where we can see a long term path toward eventual 
resolution, whatever that may be. So our focus now has not been 
on that particular issue, but that may well be for other 
agencies and the Japanese government.
    Senator Barrasso. Thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Coats.
    Senator Coats. Mr. Chairman, thank you. Thanks for the 
testimony.
    Help me out a little bit here because I'm somewhat new to 
all of this. I don't tend to begin to be an expert in any sense 
of the word. But we see these news reports that keep coming 
out. The public reacts in a way that, potentially I think, 
could undermine any kind of consensus building for the place of 
nuclear energy in addressing energy needs in the future whether 
it's here in the United States or elsewhere in the world.
    Obviously the carbon footprint of a nuclear plant is 
extraordinarily less if virtually nothing compared to other 
sources of energy. So a wrong perception or a wrong conclusion 
in terms of how we should go forward with nuclear energy 
possibilities for our country and others could lead to some 
very significant consequences in a whole number of ways. So I'm 
trying to get my head around a little bit about what we see in 
the paper everyday or see on TV every day.
    Every time a plume of steam escapes it's immediately on the 
networks. The headlines talk about and things that have just 
been mentioned here, plutonium potentially leaking into the 
seawater and so forth and so on. Then we read about news that 
has come out about babies should not be drinking milk in Tokyo. 
Vegetables may be contaminated.
    Give me some perspective in terms of levels of radiation 
where we need to be concerned as opposed to those where it's 
something that is not at such a serious nature. For instance in 
your testimony, Dr. Lyons I believe it was, basically stated 
that some of the levels of detection here in the United States 
emanating from the Japanese coast line. We get 100,000 more 
radiation, units of radiation or however measures you do, just 
simply from natural causes, rocks, sun, buildings, etcetera, 
etcetera.
    So I'm trying to put all this in perspective because when 
you look at the paper the average person doesn't pay any 
attention to this 100,000 times more. That was what was 
recorded in Tokyo relative to vegetables or so forth. I mean, 
is this something that should cause us the kind of concern that 
we're having or--I'm just trying to put it in better 
perspective.
    Mr. Lyons. There have been several press releases from the 
Department of Energy trying to assist with the general point 
that you're making, Senator. You're indeed right that we 
essentially live in a sea of radiation. We all have natural 
exposures of the order of 300 milligram to natural causes in a 
year. A milligram happens to be a convenient unit.
    To put that somewhat into perspective a flight across the 
country, you pick up about three millirem simply from that 
flight. Cosmic rays as you went up in altitude. But radiation 
is everywhere. It's important. We have certainly tried and we 
will continue to try to put in perspective the radiation levels 
that are measured.
    I don't mean to suggest that there are not harmful levels 
where the EPA and others have defined so called protection 
action guidelines. We pay careful attention to those guidelines 
to assure that levels are far below. Levels in the United 
States are many, many orders of magnitude below anything close 
to a protective action guideline.
    Senator Coats. What I'm----
    Mr. Lyons. In some areas in Japan they are going to have to 
be much more careful with attention to at least their version 
of protection action guidelines.
    Mr. Borchardt. Senator, if I could just add. The EPA 
monitoring sites and all of the operating reactors in the 
country are continuing to take samples and readings. We haven't 
seen any readings that would be of any concern whatsoever to 
public health and safety.
    Mr. Lyons. To quantify that slightly more, we have the 
aerial monitoring system which is taking countless measurements 
around the site. Just to give you one figure, the highest 
within two and a half miles of the site. They haven't gone any 
closer. Within two and a half miles of the site there has been 
no level detected greater than 30 millirem back to that unit 
per hour.
    As the flights have continued those levels have gone down. 
But they are seeing--they are measuring levels of radiation 
well above background. That information is available on DOE's 
website, available to the Japanese. We're trying to share that 
information as much as possible.
    Senator Coats. Yes. I don't think that really has been 
understood or maybe even shared. So 30 millirem within what 
circumference?
    Mr. Lyons. That was the highest level observed for flights 
that came within two and a half miles of the site. There 
certainly are higher levels closer than that.
    Senator Coats. Right.
    Mr. Lyons. But our crews and our planes are not going any 
closer--30 millirem per hour.
    Senator Coats. Put that 30 millirem in perspective to the 
danger level of that.
    Mr. Lyons. The level to which the NRC, the EPA recommend 
the public stay below in a year is 100 millirem. So that would 
be, if it was 30 millirem per hour that would be of the order 
of 3 hours would be the maximum you should spend at that. 
Again, that is the highest dose observed. It's gone down every 
day that they've flown since.
    Senator Coats. Within two and a half miles?
    Mr. Lyons. Within two and a half miles.
    Senator Coats. OK.
    Mr. Lyons. But levels on the site are much higher.
    Senator Coats. Of course, but I think the perspective is is 
that these types of levels are floating across the Nation of 
Japan, hanging over Tokyo, reaching the West Coast and so 
forth. So I think it's important that you put that in that 
perspective.
    Thank you, Mr. Chairman.
    The Chairman. Senator Coons.
    Senator Coons. Thank you, Chairman Bingaman. Thank you to 
the panel for your informative and helpful testimony today.
    I'll simply reaffirm what Senator Coats was just asking 
about. I do think there is broad concern in the general public 
about radiation and dosages. As I'm sure you're both far more 
familiar even than I am, general confusion about orders of 
magnitude, about consequence and about possible impact on the 
public health. I happen to represent a state that has no 
nuclear facilities within it but is within 50 miles of four 
others that are currently operating, one of which is of the 
design of the reactors of question.
    As I understand the incident and reading and listening to 
your testimony today, one of the core areas of concern and 
potential future action has to do with backup power with spent 
fuel rod pools and in particular with battery power. The unique 
circumstances that occurred in Japan may not occur in the 
United States. But there are other circumstances that might 
give rise to the need for a more than four or 8 hour backup 
power scenario.
    What are you doing to look at safety training and backup 
power generation and in particular battery capacity to focus on 
the issue of the spent fuel rod pools. Particularly given the 
lack of a clear path forward for the long term for managing 
spent fuel rods in the United States?
    Mr. Borchardt. Senator, the types of issues that you raise 
are exactly why we're putting together this lessons learned. 
We're going to look at both the station blackout rule that 
required a review of the coping capability of all the U.S. 
reactors to deal with the loss of all alternating current, and 
then look at what conditions, capabilities exist at all of the 
104 reactors to see if we need to strengthen regulatory 
requirements.
    I mean one of the obvious questions we'll be asking 
ourselves is do we need an enhanced battery supply, a battery 
supply that can last longer? We already have safety related, 
well protected, constantly tested diesel generators that are 
onsite. There is a day tank that provides fuel oil to those 
diesel generators that's also protected. So there is a robust 
capability that exists already.
    But given what we've learned in Japan, it's obvious the 
question that we need to ask ourselves. Do we need to make it 
even more robust and stronger? So that will be part of the 
review we'll be doing.
    Senator Coons. Thank you. I'm glad to hear that is a part 
of the review. I was pleased to see that there was a prompt 
move toward a top to bottom review nationally.
    My closing concern would be to simply urge you to then 
implement whatever the outcome is of that review. I understand 
this is an industry that already is subject to stringent, 
regulatory review to significant safety and backup procedures. 
But I think this particular incidence in order to address 
legitimate concerns of the broad American public we need to 
focus on the specific failure mechanisms here. On making sure, 
particularly for the longer term, that we've dealt with spent 
fuel and exactly how it's being stored and maintained in ways 
that couldn't lead to a reoccurrence of this sort of an 
accident in the United States, so.
    Mr. Borchardt. On the subject of spent fuel I mean, let me 
just say, that we've done a thorough evaluation of that 
storage, in either the wet spent fuel pool or in dry cask 
storage; which many of the plants in the country are currently 
using, and both provide adequate protection and safety.
    Senator Coons. Are spent fuel pools subject to also in the 
event of the loss of power they have lower backup power 
standards currently is that accurate?
    Mr. Borchardt. They require, over the long term, to have a 
circulating pump if you will, that provides cooling to the 
pool. But it would be many days as long as that there's no 
damage to the spent fuel pool and no leakage of water out. It 
would take many days for it to heat up to a point where it 
began to boil off and you would lose water level.
    What the industry has done in coordination with some of the 
regulatory requirements we imposed after 9/11 was came up with 
other backup ways to put water into the pool. I mean, using 
fire hoses and other things that aren't even hard height to the 
spent fuel pool because it's really a simple issue. All you 
need to do is keep the pool full and you protect the integrity 
of that fuel.
    Senator Coons. Thank you both. We look forward to the 
outcome of the 90-day review.
    The Chairman. Senator Lee.
    Senator Lee. I thank you both for your testimony. Dr. Lyons 
I wanted to start out with a question to you. I know much of 
your career has been devoted to nuclear safety issues. I 
suspect you would agree that the people in Japan are doing 
everything they can, doing the best job they can to deal with 
the situation.
    But I was wondering as you look at it, if you had been in 
charge of this from the outset, knowing what you know now, is 
there anything different that you might have done than was done 
in Japan to deal with this disaster?
    Mr. Lyons. Senator Lee, as part of the standard procedures 
that the NRC would go through to say nothing of the special 
review, it would be a very careful lessons learned study of any 
event whether it's Three Mile Island, whether it's 9/11, 
whether it's the Davis-Besse events recently. There's always 
lessons learned and careful study of what transpired.
    That needs to be done in this case as well. As was stated 
earlier we do not have enough detail now to really do that. But 
as that detail becomes available it will be very important, as 
I think you're suggesting, to understand in detail the steps 
that were taken and to understand whether an alternative 
sequence of steps, different timing of steps, could have been 
more effective.
    But for now, that's a little premature. We're very much 
focused on trying to help them with restoring the cooling which 
almost independent of the accident sequence that got us here. 
They need to restore that cooling.
    Senator Lee. OK. Are you fairly confident that once we've 
reviewed all of that and had the opportunity to conduct the 
post mortem of what happened that you'll be in a position to be 
able to evaluate whether if the same thing, the exact same set 
of environmental conditions that occurred there, if those were 
presented here in the United States, whether or not we'd be 
able to withstand them without a meltdown or without the 
release of radiation that occurred there?
    Mr. Lyons. I guess I'd perhaps word it just--I mean, in 
general, yes, sir. But slightly differently because as Bill 
indicated for each of our plants there is an assessment of what 
can happen from a natural disaster perspective. Depending on 
the location of the plant one will evaluate different natural 
phenomenon.
    But as part of the review that the NRC must undertake there 
has to be another check of whether there has been a 
sufficiently robust estimate of what those maximum cases could 
be.
    Senator Lee. OK. Then I've got a couple of questions for 
either or both of you just dealing with spent fuel following up 
on what some of my colleagues have asked.
    First of all, can either of you tell me what's the biggest 
single impediment to our using spent fuel reprocessing in the 
United States as one approach to take with spent fuel rods?
    Mr. Lyons. Senator, reprocessing certainly is one of the 
issues that the Blue Ribbon Commission will be studying. I'm 
sure it will be part of their recommendations. It's not 
particularly obvious to me how reprocessing or not would have 
dramatically changed at least what we've seen to date.
    But again, from the U.S. perspective we need to await the 
Blue Ribbon Commission and within my office we have a range of 
research programs looking at different potential options or 
solutions for the back end of the fuel cycle. Those, that 
research, guided by the BRC, I hope will allow us to suggest 
options that Congress may want to consider for the future for 
used fuel management.
    Senator Lee. But in the meantime you consider indefinite 
onsite storage, sustainable practice between now and whenever 
we get that figured out?
    Mr. Lyons. I was at the NRC when we did--when they did a 
number of evaluations of the safety and integrity of spent fuel 
casks. I have to admit that I have never seen a spent fuel cask 
until I was at the NRC and had many opportunities to see them. 
These are rather impressive structures.
    Yes, I have great confidence in the safety of dry cask 
storage. You know, I mentioned that we do have research 
programs within my office as does the NRC at trying to 
understand how long a duration one should consider for the use 
of dry casks. I don't think we know what that upper ground is. 
We need research to establish that. But these are very 
impressive structures.
    Senator Lee. OK. Thank you very much.
    The Chairman. Senator Murkowski, did you have other 
questions of this panel or should we go to the second panel?
    Senator Murkowski. I think in the interest of time, Mr. 
Chairman, we should go to the second panel. Thank you.
    The Chairman. We thank both of you for your excellent 
testimony. We will go ahead and dismiss you and allow the 
second panel to come forward.
    Our second panel is Mr. David Lochbaum, who is the Director 
of Nuclear Power Project with the Union of Concerned 
Scientists.
    Also Mr. Anthony Pietrangelo, I think I've got that 
pronunciation correct, Senior Vice President and Chief Nuclear 
Officer with the Nuclear Energy Institute.
    Mr. Pietrangelo, did I correctly pronounce your name?
    Mr. Pietrangelo. Yes.
    The Chairman. Thank you.
    Why don't we go ahead? Mr. Lochbaum, if you'd like to 
proceed with your testimony and then we'll hear Mr. Pietrangelo 
and then we'll have a few questions.

STATEMENT OF DAVID LOCHBAUM, DIRECTOR, NUCLEAR SAFETY PROJECT, 
                 UNION OF CONCERNED SCIENTISTS

    Mr. Lochbaum. Sorry. The Fukushima Daiichi nuclear plant in 
Japan experienced a station blackout. A station blackout occurs 
when a nuclear power plant loses electrical power from all 
sources except that by onsite batteries. The normal power 
supply energizes all the equipment needed to operate the plant 
on a daily basis as well as the emergency equipment needed 
during an accident.
    When a normal power supply is lost, backup power is 
supplied from onsite emergency diesel generators that provide 
electricity only to the smaller set of equipment needed to cool 
the reactor cores and maintain the containment's integrity. At 
Fukushima the earthquake caused the normal power supply to be 
lost while the tsunami caused the backup power supply to be 
lost. This placed the plant into a station blackout.
    Batteries provided sufficient power for the steam driven 
systems to cool the reactor cores on units one, 2 and 3. When 
those batteries were exhausted there were no cooling systems 
for the reactor cores or the spent fuel pools. Fuel in the 
reactor cores and some spent fuel pools has been damaged by 
overheating.
    Had either normal or backup power been restored before the 
batteries were depleted we would not be here today. There are 
lessons that can and should be applied to lessen the 
vulnerabilities at U.S. reactors. I cannot emphasize enough 
that the lessons from Japan apply to all U.S. reactors not just 
the boiling water reactors like those affected at Fukushima. 
None are immune to station blackout problems. All must be made 
less vulnerable to those problems.
    As at Fukushima, U.S. reactors are designed for a station 
blackout of only a short duration. Eleven U.S. reactors are 
designed to cope for a station blackout lasting 8 hours as were 
the reactors in Japan. Ninety-three of our reactors are 
designed to cope for only 4 hours. One lesson from Fukushima is 
the need to provide workers with options for dealing with a 
prolonged station blackout.
    In other words the moment that any U.S. reactor enters a 
station blackout condition response efforts should proceed 
along three parallel paths.
    First, restoration of the electrical grid as soon as 
possible.
    Second, recovery of one or more emergency diesel generators 
as soon as possible.
    Third, acquisition of additional batteries and/or temporary 
battery generators as soon as possible.
    If either of the first 2 paths leads to success, the 
station blackout ends and the re-energized safety systems can 
cool the reactor core and spent fuel pool.
    If the first 2 paths lead to failure, success on the third 
path provides enough time for the first 2 paths to achieve 
belated success.
    The timeline associated with the third path should 
determine whether additional batteries are required at existing 
facilities. For example, the existing battery life may be 
sufficient when a reactor is located near a facility where 
temporary generators are readily available. Such as the San 
Onofre Nuclear plant in California which is right next door to 
the U.S. Marine Base at Camp Pendleton.
    When a reactor is more remotely located it may be necessary 
to add onsite batteries to increase the chance that the third 
path leads to success when the first 2 paths do not.
    A reminder from Fukushima involves vulnerability at spent 
fuel pools. All U.S. reactors have more irradiated fuel in the 
spent fuel pool than exists in the reactor core. All U.S. 
reactors have the spent fuel pool cool by fewer and less 
reliable systems than are provided for the reactor core. At all 
U.S. reactors the spent fuel pool is housed in less robust 
containment than surrounds the reactor core.
    More irradiated fuel that is less well protected and less 
well defended is an undo hazard. There are 2 simple measures 
that can be taken to better manage this risk.
    Accelerate the transfer of spent fuel from the spent fuel 
pools to dry cask storage.
    Second, upgrade the guidelines for how to address an 
emergency and provide operator training for spent fuel pool 
problems.
    Currently the U.S. spent fuel storage strategy is to nearly 
fill the spent fuel pools to capacity and then transfer fuel 
into dry cask storage. This keeps the spent fuel pools filled 
nearly to capacity, thus maintaining the risk as high as 
possibly achievable. A better strategy would be to reduce the 
inventory of irradiated fuels in the pool to only the fuel 
discharged from the reactor in the last 5 years.
    Less irradiated fuel in the pools generates lower heat 
load. The lower heat load gives workers more time to restore 
cooling or the water inventory in the spent fuel pool. If 
irradiated fuel in the spent fuel pool did become damaged, 
having fewer assemblies in the spent fuel pool means the 
radioactive cloud is much smaller.
    Following the accident at Three Mile Island reactor owners 
significantly upgraded emergency procedures and training that 
the operators relied upon. Prior to that accident the 
procedures relied on the operators diagnosing what happened and 
taking steps to fix that problem. If they misdiagnosed the 
accident the guidelines could lead them to taking the wrong 
steps for the actual accident that they faced.
    Today's procedures guide the operator's response to 
abnormally high pressure or unusually low water level without 
undo regard for what caused that condition. These revamped 
emergency procedures represent significant improvements over 
the pre-TMI days. But they only apply to reactor core 
accidents. No comparable procedures would help the operators 
respond to a spent fuel pool accident. It's imperative that the 
comparable emergency procedures be provided for spent fuel pool 
accidents as they've helped protect us against reactor pool 
accidents.
    Thank you.
    [The prepared statement of Mr. Lochbaum follows:]
Prepared Statement of David Lochbaum, Director, Nuclear Safety Project, 
                     Union of Concerned Scientists
    The Fukushima Dai-Ichi nuclear plant in Japan experienced a station 
blackout. A station blackout occurs when a nuclear power plant loses 
electrical power from all sources except that provided by onsite banks 
of batteries. The normal power supply comes from the plant's own main 
generator or from the electrical grid when the reactor is shut down. 
All the equipment needed to operate the plant on a daily basis as well 
as the emergency equipment needed during an accident can be energized 
by the normal power supply. When the normal power supply is lost, 
backup power is supplied from onsite emergency diesel generators. These 
generators provide electricity only to the smaller set of equipment 
needed to cool the reactor cores and maintain the containments' 
integrity during an accident.
    At Fukushima, the earthquake caused the normal power supply to be 
lost. Within an hour, the tsunami caused the backup power supply to be 
lost. This placed the plant into a station blackout where the only 
source of power came from batteries. These batteries provided 
sufficient power for the valves and controls of the steam-driven 
system--called the reactor core isolation cooling system--that provided 
cooling water for the reactor cores on Units 1, 2, and 3. When those 
batteries were exhausted, there were no cooling systems for the reactor 
cores or the spent fuel pools. There are clear indications that the 
fuel in the reactor cores of units 1, 2, and 3 and some spent fuel 
pools has been damaged due to overheating.
    Had either normal or backup power been restored before the 
batteries were depleted, we would not be here today discussing this 
matter. The prolonged station blackout resulted in the inability to 
cool the reactor cores in Units 1, 2, and 3, the spent fuel pools for 
all six units, and the consolidated spent fuel pool. There are lessons, 
learned at high cost in Japan, that can and should be applied to lessen 
the vulnerabilities at US reactors. And I cannot emphasis enough that 
the lessons from Japan apply to all US reactors, not just the boiling 
water reactors like those affected at Fukushima. None are immune to 
station blackout problems. All must be made less vulnerable to those 
problems.
    As at Fukushima, US reactors are designed to cool the reactor core 
during a station blackout of only a fairly short duration. It is 
assumed that either the connection to an energized electrical grid or 
the repair of an emergency diesel generator will occur before the 
batteries are depleted. Eleven US reactors are designed to cope with a 
station blackout lasting eight hours, as were the reactors in Japan. 
Ninety-three of our reactors are designed to cope for only four hours. 
But unless the life of the on-site batteries is long enough to 
eliminate virtually any chance that the batteries would be depleted 
before power from another source is restored, one lesson from Fukushima 
is the need to provide workers with options for dealing with a station 
blackout lasting longer than the life of the on-site batteries. In 
other words, the moment that any US reactor enters a station blackout, 
response efforts should proceed along three parallel paths: (1) 
restoration of the electrical grid as soon as possible, (2) recovery of 
one or more emergency diesel generators as soon as possible, and (3) 
acquisition of additional batteries and/or temporary generators as soon 
as possible. If either of the first two paths leads to success, the 
station blackout ends and the reenergized safety systems can cool the 
reactor core and spent fuel pool. If the first two paths lead to 
failure, success on the third path will hopefully provide enough time 
for the first two paths to achieve belated success.
    The timeline associated with the third path should determine 
whether the life of the on-site batteries is adequate or whether 
additional batteries should be required.. For example, the existing 
battery life may be sufficient when a reactor is located near a 
facility where temporary generators are readily available, such as the 
San Onofre nuclear plant in California, which is next to the US Marine 
base at Camp Pendleton. When a reactor is more remotely located, it may 
be necessary to add on-site batteries to increase the chance that the 
third path leads to success if the first two paths do not.
    The second lesson from Fukushima is the need to address the 
vulnerability of spent fuel pools. At many US reactors, there is far 
more irradiated fuel in the spent fuel pool than in the reactor core. 
At all US reactors, the spent fuel pool is cooled by fewer and less 
reliable systems than are provided for the reactor core. At all US 
reactors, the spent fuel pool is housed in far less robust structures 
than surround the reactor core. This means that any release of 
radiation from the pool will not be as well contained as radiation 
released from the reactor core. It also means that spent fuel pools are 
more vulnerable to terrorist attack than is the reactor itself. More 
irradiated fuel that is less well protected and less well defended is 
an undue hazard. There are two measures to better manage this risk: (1) 
accelerate the transfer of spent fuel from spent fuel pools to dry cask 
storage, and (2) upgrade the guidelines for how to address an emergency 
and the operator training for spent fuel pool problems.
    Currently, the US spent fuel storage strategy is to nearly fill the 
spent fuel pools to capacity and then to transfer fuel into dry cask 
storage to provide space for the new fuel discharged from the reactor 
core. This keeps the spent fuel pools nearly filled with irradiated 
fuel, thus maintaining the risk level about as high as possible. Added 
to that risk is the risk from dry casks stored onsite, which is less 
than that from the spent fuel pools but not zero.
    A better strategy would be to reduce the inventory of irradiated 
fuel in the pools to the minimum amount, which would be only the fuel 
discharged from the reactor core within the past five years. Reducing 
the spent fuel stored in the pools would lower the risk in two ways. 
First, less irradiated fuel in the pools would generate a lower heat 
load. If cooling of the spent fuel pool was interrupted or water 
inventory was lost from the pool, the lower heat load would give 
workers more time to recover cooling and/or water inventory before 
overheating caused fuel damage. And second, if irradiated fuel in a 
spent fuel pool did become damaged, the amount of radioactivity 
released from the smaller amount of spent fuel would be significantly 
less than that released from a nearly full pool. Reducing the amount of 
irradiated fuel in spent fuel pools would significantly reduce the 
safety and security risks from a nuclear power plant.
    Following the 1979 accident at Three Mile Island, reactor owners 
significantly upgraded emergency procedures and operator training.. 
Prior to that accident, procedures and training relied on the operators 
quickly and correctly diagnosing what had happened and taking steps to 
mitigate the consequences. If the operators mis-diagnosed the accident 
they faced, the guidelines could lead them to take the wrong steps for 
the actual accident in progress. The revamped emergency procedures and 
training would guide the operators' response to an abnormally high 
pressure or an unusually low water level without undue regard for what 
caused the abnormalities. The revamped emergency procedures and 
training represent significant improvements over the pre-TMI days. But 
they apply only to reactor core accidents. No comparable procedures and 
training would help the operators respond to a spent fuel pool 
accident. It is imperative that comparable emergency procedures and 
training be provided for spent fuel pool accidents to supplement the 
significant gains in addressing reactor core accidents that were made 
following the TMI accident.
    The Nuclear Regulatory Commission has announced a two-phase 
response plan to Fukushima; a 90-day quick look followed by a more in-
depth review. If the past three decades have demonstrated anything, 
it's that the NRC will likely come up with a solid action plan to 
address problems revealed at Fukushima, but will be glacially slow in 
implementing those identified safety upgrades. A comprehensive action 
plan does little to protect Americans until its goals are achieved. We 
urge the US Congress to force the NRC to not merely chart a course to a 
safer place, but actually reach that destination as soon as possible.

    The Chairman. Mr. Pietrangelo, go right ahead.

STATEMENT OF ANTHONY R. PIETRANGELO, SENIOR VICE PRESIDENT AND 
        CHIEF NUCLEAR OFFICER, NUCLEAR ENERGY INSTITUTE

    Mr. Pietrangelo. Thank you, Senator. Good morning, all.
    First, on behalf of NEI and our members our thoughts are 
with the Japanese, our friends and colleagues in the industry 
there and in particular those workers on the ground who have 
been struggling with trying to bring this plant to a safe 
condition over the last couple weeks. So Senator Murkowski, I 
echo your empathy for them. I can't pretend to understand what 
it's like to get hit by a massive earthquake, followed by a 
tsunami, followed by additional aftershocks of a very 
significant magnitude. So they are doing a heroic job there to 
bring that plant to a safe condition.
    There have been a lot of questions thus far this morning 
about could it happen here? What are the events that could 
bring us to this similar condition in Japan? What I like to say 
is that and Bill Borchardt and Pete went over the provisions 
that go into the licensing of our plants.
    But I think for the people at the stations it almost 
doesn't matter what gets you in the condition, whether it's an 
earthquake, tsunami, flood, hurricane, tornado, equipment 
failure, operator error, manufacturing defect, all those areas 
are exhaustively reviewed by the NRC before you can get a 
license. If you did get some rare combination of those that 
puts you in a station blackout or any other concern where you 
can't get cooling to the core, that's why we prepare the way we 
do at our plants. We're ready for those kinds of measures.
    I want to start with the proactive steps we've taken as an 
industry. Basically looking at severe accidents and what goes 
into, what we prepare for in terms of beyond design basis 
events. When the NRC licenses to plants originally the 
demonstration had to be that you could place the plant in a 
safe condition given the extreme design basis events, 
earthquake, loss of offsite power, etcetera.
    Since that time through both NRC regulation and other 
measures we put in place we've gone beyond the design basis.
    We've used probalistic risk assessment to look at 
combinations of initiating events and equipment failures and 
human actions that could damage the core and what we could do 
to respond to those.
    So we've identified vulnerabilities in the designs that 
we've addressed.
    We've identified accident management insights for the 
operators.
    I agree with David's suggestion about looking at severe 
accident management for fuel pools.
    We have some numbers in place, some measures in place, but 
not to the extent we do for the reactors.
    Also I think the President got it right on March 17. Again, 
these designs have been exhaustively reviewed. But it's 
incumbent upon us as an industry and NRC as a regulator and the 
International Atomic Energy Agency and operators all over the 
world to fully understand the lessons learned that come out of 
Fukushima and apply them.
    I do want to talk a little bit more about the improvements 
we've put in place since the plants were licensed. I mentioned 
the PRA improvements. Also after September 11, 2001, we did a 
lot of work on fires and explosions related to aircraft impact. 
Wiping out quadrants of the plant and seeing what contingency 
measures could be put in place to deal with the loss of key 
safety functions.
    This even goes beyond some of the station blackout measures 
that David talked about. The ability to get water into steam 
generators and PWRs or water into the primary containment and 
BWRs to look at backup pooling measures. We put a lot of those 
measures in place. Those measures included contingency measures 
for spent fuel pools including getting sprays to the pools and 
connections to stand pipes or existing equipment to keep the 
fuel covered.
    Bill mentioned that the analysis of the spent fuel pools. 
It's not quite as complicated, thankfully, as the reactors are. 
Basically you have to keep water in the pool. It's a great 
radiation shield and a great coolant. You can go to any spent 
fuel pool in the country and look over the handrail right down 
at the used fuel without any protective clothing on whatsoever.
    You know, Bill mentioned that depending on the age of the 
fuel and how long it's been in there it will take days, more 
likely weeks before you would boil off the inventory. Typically 
there's 20 to 30 feet of water above the top of those used fuel 
rods. So that's a long time to be able to deal with the event 
if it occurs.
    One thing I can say going forward is that our industry, our 
hallmark is learning from operating experience. We learned a 
lot from TMI in terms of operator training as well as design 
enhancements. We will enhance safety as a result of Fukushima. 
We will get these lessons learned.
    We started that already. But it's going to take a long time 
to get a full understanding of what transpired there. But when 
we do I can assure you that we will enhance safety margins 
across the industry.
    Thank you.
    The Chairman. Thank you both for your testimony.
    Let me ask first, Mr. Lochbaum, what are your thoughts 
this--we had testimony in the first panel about the station 
blackout rule that the NRC has put in place that presumably 
would build in some safety precautions against the kind of loss 
of power that we've experienced or at least the consequences 
from loss of power that we've seen in the case of the Japanese 
plant. Could you give us your views as to the adequacy of that 
station blackout rule? Whether it does what it should do or 
whether there are other things it should have done that it 
didn't accomplish?
    Mr. Lochbaum. I think the station blackout rule was to the 
NRC and the industry's credit. It did significantly reduce or 
improve safety. Put it more positively.
    I think what Japan showed us is that when the event lasts 
longer that our assumptions either four or 8 hours, we 
shouldn't leave the operators with no choices. When the station 
blackout in Japan lasted longer than their assumed duration of 
8 hours, they were left with no options. As a result the 
reactor cores and the spent fuel pools were overheated and 
damaged.
    We need to do a better job of increasing the reliability 
that either we restore AC power from the grid or restore AC 
power from the diesel generators within the 4 to 8 hours that 
we assume, and also provide the operators with something else 
should those very dedicated and intense efforts fail so they're 
not left without any options other than a miracle. Miracles are 
great, but you can't rely on them.
    So I think we need to look at that to increase the odds 
that things are corrected before the station blackout duration 
ends. Be prepared should that duration end without success on 
the restoration of power. I think we can do that. I don't think 
it's difficult.
    I think Japan showed the price of not doing that. So I 
think it's cheap insurance for the reactors in the United 
States to go ahead and do that.
    The Chairman. Mr. Pietrangelo, did you have a thought on 
any of those comments?
    Mr. Pietrangelo. Yes. I think that's one of the obvious 
places that we'll have to look. But just looking at the event 
in Japan with the earthquake and then the tsunami, destroying 
all the infrastructure around that plant. What is was was a 
massive common mode failure of all those backup emergency 
diesel generators.
    It's hard to postulate that here. It's very, very unlikely 
to occur. Also destroy the entire infrastructure around the 
plant such that you can't get help there soon.
    We're already looking at trying to stage equipment 
regionally. We've done it locally at the sites in response to 
9/11 such that we can go beyond the station blackout duration 
and still provide cooling. But to get the 48 hours or 72 hours, 
pick a number. We're going to take a hard look at that and see 
what resources would be necessary to extend the capability that 
long.
    But again, it's pretty remote that you'd get that kind of 
common mode failure across all your systems. Really the station 
blackout was predicated on giving sufficient time to either 
restore AC power from the grid or get one of the emergency 
diesel generators started.
    The Chairman. Mr. Pietrangelo, let me ask your comment on 
another statement that Mr. Lochbaum makes in his testimony. He 
says a better strategy would be to reduce the inventory of 
irradiated fuel in the pools to the minimum amount which would 
be only the fuel discharge from the reactor core within the 
past 5 years. Reducing the spent fuel stored in the pools would 
lower the risk in a couple of ways. He goes into that.
    Mr. Pietrangelo. Right.
    The Chairman. Have you looked at that recommendation and do 
you have a thought about it?
    Mr. Pietrangelo. Yes. First of all it's not a new 
recommendation. It's been out there for quite some time. I 
think as a result of Fukushima we need to take a real hard look 
at how we manage used fuel in our country. Hopefully while it's 
not a crisis situation, get some momentum behind a national 
policy to deal with used fuel.
    The issue is with the spent fuel pools. I think, you know, 
that with a lot of analyses done of what happens to used fuel 
if it gets uncovered and some kind of worse case scenarios. We 
don't know exactly what happened in those used fuel pools yet. 
I think part of those lessons learned is going to be 
specifically focused on the risk from uncovering that fuel and 
what happens when it gets uncovered.
    Nevertheless, while there would be some risk reduction in 
unloading the pools of the fuel rods after 5 or 6 years. The 
freshest old fuel is where the most heat load is and where the 
most radio toxicity is. So you would still have some risk going 
forward even if you unloaded all of the older old used fuel.
    So the problem doesn't go away. It's really a marginal 
reduction in risk when you do that.
    The Chairman. Alright.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Just to follow 
up on that then.
    So the decay radiation in this spent fuel that we're moving 
and saying OK, after 5 years we're going to move this. You're 
still going to have a level of radiation there. Do we know what 
kind of decay radiation we have?
    Then understanding that, do we have to design some type of 
a new dry cask to contain that radiation? How do we deal with 
it? Either one of you.
    Mr. Lochbaum. The reason we said 5 is that the casks that 
are being used today, there are hundreds of casks at U.S. 
plants around the country, are designed for fuel that's been 
out of the reactor for 5 years or more. So we don't have to go 
to new casks. We can use the ones that are currently certified 
by the NRC and being used by the industry.
    We would just like to accelerate the transfer from the 
pools into those already certified casks and available casks.
    Senator Murkowski. OK. So really we don't have to do that 
much in terms of any new technologies. We just move it quicker.
    Mr. Lochbaum. That's correct.
    Senator Murkowski. Let me ask a question about the use of 
the sea water to act as a coolant. I understand that we are now 
in the process, the United States is now in the process of 
helping ship in some fresh water. But in the meantime, the sea 
water has been used. There's been some question about the 
corrosive nature of the salt.
    I don't know, maybe this was a question that was best asked 
of either the 2 gentlemen before you, but can either one of you 
speak to this as an issue whether or not the salt in the sea 
water is perhaps having an impact on our ability or on the 
Japanese ability to get the reactors under control?
    Mr. Pietrangelo. Yes. I think the concern was as you boil 
off the sea water you're left with the salt that could get 
crusted in the fuel and thereby preclude the cooling of it. So 
that's why as soon as they had fresh water available they've 
started injection to the reactor vessels with fresh water.
    Those barges from the U.S. Navy, I believe have arrived now 
so they've got about a half a million gallons of fresh water 
available to continue that exercise.
    Senator Murkowski. But given that we've already used some 
pretty substantial amounts of sea water.
    Mr. Pietrangelo. Right.
    Senator Murkowski. Do we know whether or not that has 
proven to be an impediment or caused a delay or further 
complications in getting this under control?
    Mr. Pietrangelo. I don't know, Senator.
    Mr. Lochbaum. I think just the opposite. It helped. They 
were facing very dire situations. So the sea water helped stop 
whatever fuel damage was ongoing.
    So they dealt with their most immediate problem with the 
use of sea water as they should have. Now as they're probably 
doing. They're diluting that sea water with fresh water. So it 
looks like they took the right steps for the right reasons.
    Mr. Pietrangelo. Senator, even in our plants in this 
country there are provisions when you lose your available 
inventory of fresh water in a tank, provisions to use river 
water or sea water in existing systems. So, it's not exactly 
what the situation you want to get to.
    Senator Murkowski. Yes.
    Mr. Pietrangelo. But it's there if you need it.
    Senator Murkowski. Does it, does the salt have any impact, 
do we know on the spent fuel pools?
    Mr. Pietrangelo. I think it's the same concern that it 
would be in the reactor.
    Senator Murkowski. Yes.
    Mr. Pietrangelo. It could impede the cooling.
    Senator Murkowski. But again, the concern about any 
corrosive effect?
    Mr. Lochbaum. There are stainless steel liners that help 
retard more resistant to corrosion than other forms of steel. I 
think the problem for the pools would be the instrumentation 
and the other controls over the water flow through the reactor. 
But we heard in the last couple days they've restored fresh 
water supplies to the pools.
    So they'll be diluting the salinity of the water in those 
pools. So whatever damage has been done is getting better from 
now on as long as they're able to sustain that progress.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Senator Franken.
    Senator Franken. Yes. I have couple areas I want to get 
into. I'm getting some idea about how we approach assessing all 
the safety factors of a nuclear plant when we site it.
    Mr. Pietrangelo, you spoke in some good detail about that. 
But when I asked Mr. Borchardt of the Nuclear Regulatory 
Commission how the Japanese system compared to ours, he said he 
didn't know. Now I think that if Americans are going to get 
some kind of, take some kind of comfort that our system when 
everything you describe actually works. It would be nice to 
know how our system compare with the Japanese system.
    Because what we're seeing in Japan didn't work. So Mr. 
Lochbaum, I find this disturbing that this far into this crisis 
that the Nuclear Regulatory Commission doesn't know how to 
compare the Japanese system of siting and looking into the 
safety verses ours. Do you have any thoughts on that?
    Mr. Lochbaum. I'm in an unusual role of defending the NRC, 
that's typically not my role. But I think the NRC has 4,000 
people. They have an International Programs Unit that probably 
knows those answers, but to Mr. Borchardt's defense, he doesn't 
know the combined knowledge of those 4,000 people.
    I would be willing to bet this week's paycheck that the NRC 
has that answer and could get it fairly quickly. So the 
situation is not quite as bad as it may look on the surface.
    Senator Franken. OK----
    Mr. Lochbaum. By the way, it wasn't my paycheck. It was 
somebody else's 1 week paycheck I'm betting.
    [Laughter.]
    Mr. Pietrangelo. Senator, I think going forward you're 
absolutely right. We have to understand not only the 
differences in the regulatory systems. But from an industry 
perspective understand what design mods were made to those 
plants.
    What operational practices they put in place? Their 
emergency planning they've done for events like this and 
compare it to what we have in place. Then assess the gaps, if 
you will, to see whether we would have been able to better deal 
with it or that we still need to do additional things.
    Senator Franken. Yes, because, you know, it's hard to take 
a lot of comfort from what we do if you can't compare it to 
what they do because obviously what they did wasn't sufficient, 
right?
    OK. Now, I quoted a Washington Post editorial by Matthew 
Bunn. Did you read that?
    Mr. Pietrangelo. I did, sir.
    Senator Franken. Did you read that, Mr. Lochbaum?
    Mr. Lochbaum. Yes.
    Senator Franken. OK. In it he wrote that despite the 
recommendations by the National Academies that spent fuel rods 
be stored in pools onsite that they should be arranged place 
old, cool fuel rods next to newer, hotter fuel rods to prevent 
hot spots and fires in the event that the pools lost enough 
water to uncover--to cover the rods. That despite that 
recommendation in 2006 there is no such action. This is a 
quote.
    ``No such action had been taken either in the U.S. or 
Japan.''
    Mr. Borchardt said they had been. So now I ask 2 questions.
    One, Dr. Bunn is an expert at Harvard. Is he wrong? Is Mr. 
Borchardt wrong?
    Is this a good recommendation?
    Mr. Pietrangelo. Mr. Bunn is wrong. There was a correction. 
It was hard to see. So about 2 or 3 days later in the editorial 
section in the Post from Mr. Bunn saying that there had been 
measures taken to address some of the concerns he raised in his 
op ed.
    We refer to it as a checkerboard pattern of the fuel, 
precisely what he was talking about.
    Secondly, as part of the post 9/11 measures to get 
additional capability to refill the pools in the event of 
fires, explosions or any other event that could lose inventory 
in the pools.
    Senator Franken. OK. That answers that.
    Mr. Pietrangelo. Yes.
    Senator Franken. One last thing. I have 20 seconds left, so 
but I can the question and then you can take whatever time you 
want to answer it.
    Evacuation. We kind are seeing, kind of, a lot of 
controversy about how much area around the reactor in Fukushima 
is a safe area. We see that there--if you take a 50-mile radius 
from some of our reactors you have 10 and 10 of millions of 
people around them. Do we have adequate evacuation plans in 
case something like this would happen in the United States?
    Mr. Pietrangelo. Yes. Our evacuation plans are based on 
studies done in 1970s by both the NRC and other agencies. The 
ten mile emergency planning zone or EPZ, as we refer to it, was 
determined to be sufficient to protect public health and 
safety.
    There's also a 50-mile zone that looks at the ingestion 
path, any contamination of food products or dairy products and 
so forth that can be sampled.
    I'd also note there's provisions to increase the evacuation 
or protective action recommendations be it evacuation or 
sheltering beyond the ten mile EPZ. Every 2 years each plant 
conducts an emergency planning exercise that's overseen by both 
the Nuclear Regulatory Commission and FEMA. In addition we 
practice those drills quarterly onsite.
    So we think we've got the gold standard of emergency 
planning. It was a difficult situation for the NRC 2 weeks ago 
when we were in the middle of this event when they were looking 
at 3 cores and 4 spent fuel pools and limited and conflicting 
information. I think they do what they always do is think of, 
when there's a lot of uncertainty on the ground, they make a 
very conservative decision.
    I think we've seen that over the years with how the agency 
regulates. That's what happened here.
    Senator Franken. Mr. Lochbaum, do you have any opinion 
about the state of our evacuation plans?
    Mr. Lochbaum. I think our plans are as good as those in 
Japan on March 10.
    Senator Franken. I don't know what that means.
    Mr. Lochbaum. It means we would be equally in dire straits 
if we were faced with that kind of disaster. We have great 
plans on paper. If we put them to practice I think that we're 
going to show that we're going to come up short.
    Mr. Pietrangelo. But I would also add, Senator, that the 
Japanese, I think responded exactly as we would with our 
emergency plan. They evacuated within their, I think it's 12 
\1/2\ miles or 20 kilometer radius. They put sheltering in 
place later.
    So they did precisely the kinds of actions and protective 
action recommendations we would take to protect public health 
and safety. In our country it's the state and local officials 
acting on recommendations from the plant operator in the event 
and overseen by the NRC, who makes that decision.
    Senator Franken. But this Fukushima is not as dense an 
area.
    Mr. Pietrangelo. Certainly not.
    Senator Franken. As many of----
    Mr. Pietrangelo. Certainly not.
    Senator Franken. I mean, Indian Point was brought up as an 
example. Let's say you live within, I mean there's millions and 
millions and millions of people living within 50 miles of that 
plant. Let's say you're a parent, your kid is at school going 
the opposite way of exiting, getting away from there.
    Mr. Lochbaum, do you think that we need to improve on what 
we're doing?
    Mr. Lochbaum. Around Indian Point, for example, the local 
and state officials have said they can't get their people out 
if they need to. The Federal Government overruled what the 
local and state government said and said, it would happen 
anyway that some miracle would occur and the people would not 
be harmed. I tend to trust the local and state officials. They 
deal with issues on a daily basis.
    If in their best judgment they can't protect those people, 
I don't know why anybody else should believe that we can.
    Senator Franken. Thank you. I'm way over my time. Thank 
you, gentlemen.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Just very quickly. Do you think that it 
was confusing the fact that the evacuation order from the 
Japanese government that it be 12 \1/2\ miles initially and 
then the United States coming in and saying 50-mile radius. 
What does that message say that Americans are more worried 
about the radiation than the Japanese are to those that are 
living there?
    Was that a confusing directive?
    Mr. Pietrangelo. We support what the President recommended 
for American citizens in Japan. I think it's a different 
decision to evacuate U.S. citizens. There's not going to be as 
many living within that radius as it is for Japanese people who 
have been raised there and live there now.
    I can understand where some of the confusion comes. But 
again, based on the information they had at the time and the 
potential for it to degrade. I think they made a conservative 
decision, but I understand where the confusion could come.
    Senator Murkowski. Mr. Lochbaum.
    Mr. Lochbaum. In the United States one of the things we 
learned from Three Mile Island was it's good to have one voice 
to avoid confusion like you're suggesting. I think what this 
accident may suggest is we need to look at an international 
concept of one voice. So that there's not a discrepancy that 
one side or the other could say it was either too much or too 
less.
    So that I think the same reason we went to a one voice 
after Three Mile Island, it probably be a good idea to look at 
it on an international level to see if the same factors apply.
    Senator Murkowski. I appreciate that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you both for your testimony. I think 
this has been a useful hearing or useful briefing for us. We 
appreciate it.
    If additional issues come to your attention, please let us 
know and we'll try to inform the full committee on all of those 
as well.
    Thank you.
    Mr. Pietrangelo. Thank you, Senator.
    [Whereupon, at 11:43 a.m., the briefing was adjourned.]






</pre></body></html>
